LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

June 16, 2021

Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE NO. 20-1598:

5614 Connecticut Avenue, NW #307
Washington, DC 20015

PROJECT VERITAS ACTION FUND V. RACHAEL S. ROLLINS, IN
HER OFFICIAL CAPACITY AS DISTRICT ATTORNEY FOR SUFFOLK
COUNTY, MASSACHUSETTS

Dear Sir or Madam:
I hereby certify that at the request of counsel for Amici Curiae Accuracy in
Media, Coolidge-Reagan Foundation, Leadership Institute, and Public Interest Legal
Foundation on June 16, 2021, I caused service to be made pursuant to Rule 29 and the
Temporary Order of April 15, 2020 on the following counsel for the Petitioner and
Respondent:
PETITIONER:
Benjamin Barr
Barr & Klein PLLC
444 N. Michigan Avenue
Suite 1200
Chicago, IL 60611
202-595-4671
ben@barrklein.com

RESPONDENT:
Eric Andrew Haskell
Office of the Attorney General
One Ashburton Place
Boston, MA 02108
617-963-2855
eric.haskell@mass.gov

This service was effected by depositing one copy of the Brief of Amici Curiae
Accuracy in Media, Coolidge-Reagan Foundation, Leadership Institute, and Public
Interest Legal Foundation in an official “first class mail” receptacle of the United
States Post Office as well as by transmitting a digital copy via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 16th day of June 2021.

